BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief of Amicus Curiae Professors Elizabeth
A. Clark, Robert F. Cochran, Jr., Carl H. Esbeck,
David F. Forte, Richard W. Garnett, Christopher C.
Lund, Michael W. McConnell, Michael P. Moreland,
Robert J. Pushaw, and David A. Skeel Supporting
Petitioners in 20-1158, The North American Mission
Board of the Southern Baptist Convention, Inc. v. Will
McRaney, was sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
Service and e-mail to the following parties listed
below, this 21st day of April 2021:
Matthew Theodore Martens
Wilmer Hale
1875 Pennsylvania Avenue, NW
Washington, DC 20006
(202) 663-6000
matthew .martens@wilmerhale.com
Counsel for Petitioner
Scott E. Gant
Boies Schiller Flexner LLP
1401 New York Ave., NW
Washington, DC 20005
(202) 237-2727
sgant@bsfllp.com

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

, Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

William Harvey Barton II
Barton Law Firm, PLLC
3007 Magnolia Street
Pascagoula, MS 39567
(228) 769-2070
harvey@wbartonlaw.com
Counsel for Respondent
Thomas R. McCarthy
Counsel of Record
Tiffany H. Bates
Antonin Scalia Law School Supreme Court Clinic
Consovoy McCarthy PLLC
1600 Wilson Boulevard
Suite 700
Arlington, VA 22209
(703) 243-9423
tom@consovoymccarthy.com
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 21, 2021.

Cv-t 1Ylull-0

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

Li;z~ J./1 o d /
<)v'l ~ f..JGU-,~
I

Notary Public

1

"-J

[seal]

JOHN 0. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
Febr1 iary 14, ~02'.3

